Supreme Court, U.S.
FILED

JUL 2 0 2021
No. 21-

office

In The
Supreme Court of tlje fHntteb States;
United States Of America,
Plaintiff-Appellee,
v.
Alphonse Gainer,
Petitioner-Appellant.

On Petition for a Writ of Certiorari to the United States
Court ofAppeals For The Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Alphonse Gainer
Reg. No. 03352-017
USP Lee
U.S. Penitentiary
P.O. Box 305
Jonesville, VA 24263
Appearing Pro Se

m eJ U

OF THE CLERK

1

QUESTIONS PRESENTED
I.

Whether the United States Court of Appeals for the
Eleventh Circuit abused its discretion in denying
Gainer’s Motion for Reconsideration of Denial of
His Appeal Re: Motion for Sentence Reduction
pursuant to Section 404 of the First Step Act of
2018.

/
\

PARTIES TO THE PROCEEDINGS
Petitioner-Appellant, ALPHONSE GAINER
(“Gainer”), was a criminal defendant in the United States
District Court for the Northern District of Florida, Panama
City Division, in USDC Criminal No.
5:94-cr-05004-LC-MD-l; and as Appellant in the United
States Court ofAppeals for the Eleventh Circuit (“Eleventh
Circuit”) in USCA No. 20-13642. Respondent, United
States of America, was the Plaintiff in the District Court
and Appellee in the Eleventh Circuit.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS

1

n

TABLE OF CONTENTS

111

APPENDIX TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

v

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED.. .. 1
STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE PETITION

4

The United States Court of Appeals for the
Eleventh Circuit Abused its Discretion in
Denying Gainer’s Motion for
Reconsideration of the Denial of His
Appeal Re: Motion for Sentence Reduction
Pursuant to Section 404 of the First Step
Act of 2018................................................
CONCLUSION

0

4
7

IV

APPENDIX TABLE OF CONTENTS
Page
Eleventh Circuit Order in USCA No. 20-13642 dated June
9, 2021, Denying Gainer’s Motion Reconsideration
Construed as a Petition for Panel Rehearing
la
Eleventh Circuit Order in USCA No. 20-13642 dated April
27, 2021, Denying Gainer’s Appeal Re: Motion for
Sentence Reduction Pursuant to Section 404 of the First
Step Act of 2018
2a
U.S. District Court Order in a Criminal Case dated August
20, 2020, Denying Gainer’s Motion for Sentence
Reduction Pursuant to Section 404 of the First Step Act of
2018
3a

TABLE OF AUTHORITIES
Cases
Anders v. California, 386 U.S. 738 (1967)

Page
3-7

Douglas v. California, 372 U.S. 353, 354-56,83 S. Ct.
814,9 L. Ed. 2d 811 (1963)
7
Ellis v. United States, 356 U.S. 674,78 S. Ct. 974,2 L. Ed.
2d 1060 (1958) (per curiam)
6-7
Estelle v. Gamble, 429 U.S. 97, 106 (1976)

4

Haines v. Kerner, 404 U.S. 519, 520 (1972)

4

Penson v. Ohio, 488 U.S. 75, 82-83,109 S. Ct. 346,102 L.
Ed. 2d 300 (1988)
6
Smith v. Robbins, 528 U.S. 259, 270, 120 S. Ct. 746, 145
L. Ed. 2d 756 (2000)
6-7
USA v. Alphonse Gainer, No. 20-13642 (11th Cir. 2021). .
1
United States v. Dawson, No. 18-10160 (11th Cir. Jul. 17,
2018)
5-6

I

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully submits this petition for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Eleventh Circuit.
OPINION BELOW
The opinion of the United States Court of Appeals
for the Eleventh Circuit is non-published, USA v. Alphonse
Gainer, No. 20-13642 (11th Cir. 2021), is attached in the
Appendix at la and 2a.
STATEMENT OF JURISDICTION
The judgment of the court of appeals was entered on
April 27, 2021. A petition for rehearing was denied on
June 9, 2021. On August 29,2018,The jurisdiction of this
Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
Section 1 of the Fourteenth Amendment to the
Constitution of the United States provides:
All persons bom or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without
due process of law; nor deny to any person
within its jurisdiction the equal protection of
the laws.

2

28 U.S.C. § 2254, in its pertinent part, provides:
“(a) The Supreme Court, a Justice thereof, a
circuit judge, or a district court shall entertain
an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the
judgment of a State court only on the ground
that he is in custody in violation of the
Constitution or laws or treaties of the United
States.”
STATEMENT OF THE CASE
On January 12, 1994, a grand jury sitting in the
United States District Court for the Northern District of
Florida, Panama City Division, returned a one (1) count
Indictment charging Gainer. See Doc. 1. Count 1 charged
Gainer with Possession with Intent to Distribute Cocaine
Base, in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(A).
Id.
On March 2, 1994, the government filed an
Information to Establish Prior Conviction with the
intention to seek enhanced sentence, pursuant to 21 U.S.C.
§ 851 (851 Enhancement”). See Doc. 14.
On March 22,1994, the jury found Gainer guilty on
Count 1 of the Indictment. See Doc. 19.
On May 17,1994, Gainer was sentenced to a term of
540 months’ imprisonment, 10 years of Supervised
Release, no Fine or Restitution, and a Mandatory Special
Assessment Fee of $50. See Doc. 28.
On May 23, 1994, Gainer timely filed a Notice of
Appeal. See Doc. 29.

3

On October 12, 1995, the United States Court of
Appeals for the Eleventh Circuit (“Eleventh Circuit”)
affirmed the District Court’s conviction and sentence. See
Doc. 53.
On February 11,1998, Gainer filed a Motion under
28 U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence
by a Person in Federal Custody (“§ 2255 Motion”), which
was amended on March 26, 1998. See Docs. 54, 57.
On October 2, 1998, the Court issued an Order
denying Gainer’s § 2255 Motion. See Doc. 64.
On April 30, 2008, Defendant’s 540-month term of
imprisonment was reduced to 405 t months pursuant to
Amendment 706, which was at the highest end of the
guideline range as calculated under that amendment (324
to 405 months). See Doc. 146, 147.
On June 7,2019, Gainer filed a Motion for Sentence
Reduction pursuant to Section 404 of the First Step Act of
2018, which was denied on August 20, 2020. See Docs.
204,2018.
On September 2,2020, Gainer timely filed a Notice
of Appeal Re: Denial of his Motion for Sentence
Reduction. See Doc. 219. Gainer’s counsel has moved to
withdraw from further representation of the appellant and
filed a brief pursuant to Anders v. California, 386 U.S. 738
(1967). On April 27, 2020, the Eleventh Circuit granted
counsel’s motion to withdraw and affirmed the District
Court’s denial of Gainer’s Motion for Sentence Reduction.
See Doc. 230.
On May 25, 2021, Gainer filed a Motion for
Reconsideration Within 21 Days Pursuant to Cir R. 27-2,
which was construed as a Petition for Panel Rehearing and
was denied on June 9, 2021.

4

REASONS FOR GRANTING THE PETITION
As a preliminary matter, Gainer respectfully requests
that this Honorable Court be mindful that pro se litigants
are entitled to liberal construction of their pleadings.
Estelle v. Gamble, 429 U.S. 97,106 (1976); and Haines v.
Kerner, 404 U.S. 519, 520 (1972).
The United States Court of Appeals for the
Eleventh Circuit Abused its Discretion in
Denying Gainer’s Motion for
Reconsideration of the Denial of His
Appeal Re: Motion for Sentence Reduction
Pursuant to Section 404 of the First Step
Act of 2018
Gainer contends that the Eleventh Circuit abused its
discretion when it denied his Motion for Reconsideration
of the Denial of Motion for Sentence Reduction, for the
following facts and reasons:
The Eleventh Circuit’s Order dated June 9, 2021,
denying Gainer’s Motion for Reconsideration reads:
The “Motion for Reconsideration Within 21
Days Pursuant to Cir. R. 27-2,” construed as
Petition for Panel Rehearing, filed by
Alphonse Gainer is DENIED.
See Appendix at la.
In his Motion to Reconsider, Gainer raises the issue:
“In the Court’s Order, the justices claim that independent
review of the entire record was assessed with the Anders
Brief, but no mentioned of reviewing Mr. Gainer’s pro se
motion.”

5

The Eleventh Circuit presumed that “the review of
the entire record reveals that counsel’s assessment of the
relative merit of the appeal is correct. Further, the Eleventh
Circuit opined that “because independent examination of
the entire record reveals no arguable issues of merit,
counsel’s motion to withdraw is GRANTED, and the
district court’s denial of Gainer’s motion for a sentence
reduction pursuant to the First Step Act is AFFIRMED.”
See Appendix 3a.
Under Anders if an attorney examines a case and
determines that an appeal desired by his client would be
“wholly frivolous,” counsel may “so advise the court and
request permission to withdraw.” Anders, 386 U.S. at 744.
Counsel must submit a brief to both the appellate court and
the client, pointing to anything in the record that could
potentially present an appealable issue. See Id. The client
may then choose to offer argument to the court. See Id. If,
upon close examination of the record, the court determines
that the appeal is frivolous, it may grant counsel’s request
to withdraw and dismiss the appeal. See Id.
In this court, Gainer does not pursue his claims
argued in his Motion for Sentence Reduction Pursuant to
Section 404 of the First Step Act of 2018 but complains
only about how his appeal was handled. He contends that
the Eleventh Circuit Court improperly permitted appellate
counsel to withdraw without considering his [Gainer’s]
Brief or Response.
See United States v. Dawson, No. 18-10160 (11th
Cir. Jul. 17, 2018). Patricia Jean Kyle, appointed counsel
for Keith Dawson, in this direct criminal appeal, has moved
to withdraw from further representation of the appellant
andfiled a briefpursuant to Anders v. California, 386 U.S.
738, 87 S.Ct. 1396, 18 L.Ed.2d 493 (1967). She has also
moved for limited remand on the issue of Dawson’s

6

cooperation with the government. Our independent review
of the entire record reveals that counsel ’ s assessment of the
relative merit of the appeal is correct. Because independent
examination of the entire record reveals no arguable issues
of merit, counsel’s motion to withdraw is GRANTED, and
Dawson’s conviction and sentence are AFFIRMED.
In Dawson, although the Eleventh Circuit affirmed
Dawson’s conviction and sentence, he was afforded the
right to respond to counsel’s Anders brief, and the Eleventh
Circuit Court considered his arguments before issuing an
Order to deny Dawson’s appeal.
In this regard, the Court found it necessary to
specifically identify that in Anders and Ellis v. United
States, 356 U.S. 674, 78 S. Ct. 974, 2 L. Ed. 2d 1060
(1958) (per curiam), “neither counsel, the state appellate
court on direct appeal, nor the state habeas courts had made
any finding of frivolity.” Smith v. Robbins, 528 U.S. 259,
270, 120 S. Ct. 746, 145 L. Ed. 2d 756 (2000). The Court
also clearly referred to its conclusion in Anders that a
characterization that an appeal had no merit was inadequate
because it did not mean that the appeal was so lacking in
prospects as to be frivolous. Id. at 270-71. Moreover, an
appellate court must determine if counsel’s evaluation of
the case was sound. See Penson v. Ohio, 488 U.S. 75,
82-83,109S.Ct.346,102 L. Ed. 2d 300 (1988). Therefore,
it goes without saying that these holdings clearly advocate
that a court must actually make a finding of frivolity when
an Anders brief is before it.
Consequently, the presumption by the Eleventh
Circuit that the Court’s careful review included a
determination that the appeal was frivolous is no different
than the no merit characterization discussed by the Court
in Smith and firmly rejected in Anders and Ellis.
Accordingly, the Eleventh Circuit’s decision is clearly

7

contrary to this Court’s case law in Anders, Ellis and Smith
and it will only serve to deny adequate and effective
appellate review to indigent defendants. See Douglas v.
California, 372 U.S. 353,354-56,83 S. Ct. 814,9 L. Ed. 2d
811 (1963).
Gainer submits that the issue presented by this
petition is of significant concern and an important public
issue deserving of the Court’s attention. In this regard,
there is a legitimate need for the Court to render an opinion
which makes clear that a court must actually make a
finding of frivolity when an Anders brief is before it.
CONCLUSION
For the above and foregoing reasons, Gainer’s
petition for a writ of certiorari should be granted.
Respectfully submitted,

Dated: July IB , 2021

OApyqyhhfl hlrtbiisah

Alphonse Gainer
Reg. No. 03352-017
USP Lee
U.S. Penitentiary
P.O. Box 305
Jonesville, VA 24263
Appearing Pro Se

